Nos. 20-37, 20-38
IN THE

imprente Court of the Eniteb Otatefi
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND
HUMAN SERVICES, et al.,
Petitioners,

v.

CHARLES GRESHAM, et al.,
Respondents.
STATE OF ARKANSAS,
Petitioner,

v.

CHARLES GRESHAM, et al.,
Respondents.
On Writs of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit
BRIEF OF HEALTH CARE PROVIDER
ORGANIZATIONS AND PATIENT GROUPS AS
AMICI CURIAE IN SUPPORT OF RESPONDENTS
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,918 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 26, 2021.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

